<html>
<title> - "LIHEAP & CSBG: PROVIDING ASSISTANCE TO LOW-INCOME FAMILIES" HEARING BEFORE THE SUBCOMMITTEE ON EDUCATION REFORM OF THE COMMITTEE ON EDUCATION AND THE WORKFORCE HOUSE OF REPRESENTATIVES ONE HUNDRED EIGHTH CONGRESS FIRST SESSION HEARING HELD IN WASHINGTON, DC, JULY 8, 2003 Serial No. 108-23 Printed for the use of the Committee on Education and the Workforce 88-985 pdf</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                     "LIHEAP & CSBG: PROVIDING ASSISTANCE
                            TO LOW-INCOME FAMILIES"



                                   HEARING

                                 BEFORE THE

                        SUBCOMMITTEE ON EDUCATION REFORM
                                    OF THE
                           COMMITTEE ON EDUCATION AND
                                 THE WORKFORCE

                            HOUSE OF REPRESENTATIVES

                          ONE HUNDRED EIGHTH CONGRESS

                                 FIRST SESSION
		
                  HEARING HELD IN WASHINGTON, DC, JULY 8, 2003

                                Serial No. 108-23

               Printed for the use of the Committee on Education
               and the Workforce


     88-985 pdf
____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area (202) 512-1800
FAX: (202) 512-2250  Mail: Stop SSOP, Washington, DC 20402-0001




                    COMMITTEE ON EDUCATION AND THE WORKFORCE
                        JOHN A. BOEHNER, Ohio, Chairman

THOMAS E. PETRI, Wisconsin		GEORGE MILLER, California
CASS BALLENGER, North Carolina		DALE E. KILDEE, Michigan
PETER HOEKSTRA, Michigan		MAJOR R. OWENS, New York
HOWARD P. "BUCK" McKEON, California	DONALD M. PAYNE, New Jersey
MICHAEL N. CASTLE, Delaware		ROBERT E. ANDREWS, New Jersey
SAM JOHNSON, Texas			LYNN C. WOOLSEY, California
JAMES C. GREENWOOD, Pennsylvania	RUBE?N HINOJOSA, Texas
CHARLIE NORWOOD, Georgia		CAROLYN McCARTHY, New York
FRED UPTON, Michigan			JOHN F. TIERNEY, Massachusetts
VERNON J. EHLERS, Michigan		RON KIND, Wisconsin
JIM DeMINT, South Carolina		DENNIS J. KUCINICH, Ohio
JOHNNY ISAKSON, Georgia			DAVID WU, Oregon
JUDY BIGGERT, Illinois			RUSH D. HOLT, New Jersey
TODD RUSSELL PLATTS, Pennsylvania	SUSAN A. DAVIS, California
PATRICK J. TIBERI, Ohio			BETTY McCOLLUM, Minnesota
RIC KELLER, Florida			DANNY K. DAVIS, Illinois
TOM OSBORNE, Nebraska			ED CASE, Hawaii
JOE WILSON, South Carolina		RAU?L M. GRIJALVA, Arizona
TOM COLE, Oklahoma			DENISE L. MAJETTE, Georgia
JON C. PORTER, Nevada			CHRIS VAN HOLLEN, Maryland
JOHN KLINE, Minnesota			TIMOTHY J. RYAN, Ohio
JOHN R. CARTER, Texas			TIMOTHY H. BISHOP, New York
MARILYN N. MUSGRAVE, Colorado
MARSHA BLACKBURN, Tennessee
PHIL GINGREY, Georgia
MAX BURNS, Georgia

                    Paula Nowakowski, Chief of Staff
                John Lawrence, Minority Staff Director



                   SUBCOMMITTEE ON EDUCATION REFORM
                MICHAEL N. CASTLE, Delaware, Chairman

TOM OSBORNE, Nebraska, Vice Chairman	LYNN C. WOOLSEY, California
JAMES C. GREENWOOD, Pennsylvania	SUSAN A. DAVIS, California
FRED UPTON, Michigan			DANNY K. DAVIS, Illinois
VERNON J. EHLERS, Michigan		ED CASE, Hawaii
JIM DeMINT, South Carolina		RAU?L GRIJALVA, Arizona
JUDY BIGGERT, Illinois			RON KIND, Wisconsin
TODD RUSSELL PLATTS, Pennsylvania	DENNIS J. KUCINICH, Ohio
RIC KELLER, Florida			CHRIS VAN HOLLEN, Maryland
JOE WILSON, South Carolina		DENISE L. MAJETTE, Georgia
MARILYN N. MUSGRAVE, Colorado		


                          TABLE OF CONTENTS

TABLE OF CONTENTS ...................................................   i

OPENING STATEMENT OF CHAIRMAN MICHAEL N. CASTLE, SUBCOMMITTEE ON 
EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. 
HOUSE OF REPRESENTATIVES ............................................   1

OPENING STATEMENT OF RANKING MEMBER LYNN C. WOOLSEY, 
SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE 
WORKFORCE, U.S. HOUSE OF REPRESENTATIVES ............................   3

TESTIMONY OF LESLIE LEE, LIHEAP DIRECTOR, DEPARTMENT OF HEALTH AND 
SOCIAL SERVICES, NEW CASTLE, DELAWARE ...............................   7

TESTIMONY OF DR. CAROLYN C. DRAKE, DIRECTOR, SOUTHERN STATES ENERGY 
BOARD, WASHINGTON, D.C. .............................................   9

TESTIMONY OF DR. MARY NELSON, PRESIDENT AND CEO, BETHEL NEW LIFE, 
INC., CHICAGO, ILLINOIS .............................................  10

TESTIMONY OF MR. MICHAEL TUBBS, EXECUTIVE DIRECTOR, COMMUNITY 
ACTION ASSOCIATION OF ALABAMA, BIRMINGHAM, ALABAMA ..................  12

TESTIMONY OF MR. DAVID BRADLEY, EXECUTIVE DIRECTOR, NATIONAL 
COMMUNITY ACTION FOUNDATION, WASHINGTON, D.C. .......................  14

APPENDIX A - WRITTEN OPENING STATEMENT OF CHAIRMAN MICHAEL N. 
CASTLE, SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON EDUCATION 
AND THE WORKFORCE, U.S. HOUSE OF REPRESENTATIVES ....................   1

APPENDIX B - OPENING STATEMENT OF RANKING MEMBER LYNN C. WOOLSEY, 
SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE 
WORKFORCE, U.S. HOUSE OF REPRESENTATIVES ............................   1

APPENDIX C - WRITTEN DOCUMENT SUBMITTED FOR THE RECORD BY RANKING 
MEMBER LYNN C. WOOLSEY, SUBCOMMITTEE ON EDUCATION REFORM, 
COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES .....................................................   1

APPENDIX D - WRITTEN TESTIMONY OF LESLIE LEE, LIHEAP DIRECTOR, 
DEPARTMENT OF HEALTH AND SOCIAL SERVICES, NEW CASTLE, DELAWARE ......   1

APPENDIX E - WRITTEN TESTIMONY OF DR. CAROLYN C. DRAKE, DIRECTOR, 
SOUTHERN STATES ENERGY BOARD, WASHINGTON, D.C. ......................   1

APPENDIX F - WRITTEN TESTIMONY OF DR. MARY NELSON, PRESIDENT AND CEO, 
BETHEL NEW LIFE, INC., CHICAGO, ILLINOIS ............................   1

APPENDIX G - WRITTEN TESTIMONY OF MR. MICHAEL TUBBS, EXECUTIVE 
DIRECTOR, COMMUNITY ACTION ASSOCIATION OF ALABAMA, BIRMINGHAM, 
ALABAMA .............................................................   1

APPENDIX H - WRITTEN TESTIMONY OF MR. DAVID BRADLEY, EXECUTIVE 
DIRECTOR, NATIONAL COMMUNITY ACTION FOUNDATION, WASHINGTON, D.C. ....   1

APPENDIX I -WRITTEN DOCUMENT SUBMITTED FOR THE RECORD BY DR. 
CAROLYN C. DRAKE, DIRECTOR, SOUTHERN STATES ENERGY BOARD, 
WASHINGTON, D.C., AT THE REQUEST OF THE HONORABLE VERNON EHLERS, 
SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE 
WORKFORCE, U.S. HOUSE OF REPRESENTATIVES ............................   1

TABLE OF INDEXES ....................................................   2


                   HEARING ON LIHEAP AND CSBG:  PROVIDING

                      ASSISTANCE TO LOW-INCOME FAMILIES


                            TUESDAY, JULY 8, 2003

                      SUBCOMMITTEE ON EDUCATION REFORM,

                  COMMITTEE ON EDUCATION AND THE WORKFORCE

                          U.S. HOUSE OF REPRESENTATIVES

                                WASHINGTON, D.C.





	The Subcommittee met, pursuant to call, at 3 p.m., in Room 2175, 
Rayburn House Office Building, Hon. Mike Castle [chairman of the 
subcommittee] presiding.

	Present:  Representatives Castle, Osborne, Ehlers, Biggert, 
Woolsey, Davis of California, Davis of Illinois, Grijalva, Van Hollen, 
and Majette.

	Also Present:  Representative Rogers.

	Staff Present:  Julian Baer, Legislative Assistant; Pam Davidson, 
Professional Staff Member; Kevin Frank, Professional Staff Member; Parker Hamilton, Communications Coordinator; Kate Houston, Professional Staff 
Member; Krisann Pearce, Deputy Director of Education and Human Resources Policy; Deborah L. Samantar, Committee Clerk/Intern Coordinator; Ruth Friedman, Minority Legislative Associate/Education; Joe Novotny, Minority 
Legislative Assistant/Education; and Lynda Theil, Minority Legislative Associate/Education.

OPENING STATEMENT OF CHAIRMAN MICHAEL N. CASTLE, 
SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES

Chairman Castle.  The Subcommittee on Education Reform will come to order.  
We appreciate the attendance of our ranking member, Ms. Woolsey, who will speak in a moment, and our co-chairman, Mr. Osborne, for being here.  A 
quorum is present, so we will officially come to order.

	We are meeting today to hear testimony on LIHEAP and CSBG:  
Providing Assistance to Low-Income Families.  Under Committee rule 12(b), opening statements are limited to the Chairman and ranking minority member 
of the Subcommittee.  Therefore, if other members have statements, they 
may be included in the hearing record.

	With that, I ask unanimous consent for the hearing record to 
remain open 14 days to allow members' statements and other extraneous 
material referenced during the hearing to be submitted in the official 
hearing record.

	Without objection, so ordered.

	Let me say good afternoon to everybody who is here today, 
particularly our witnesses who have come from various parts of the country 
to join us.  I do want to welcome all of you to our hearing today entitled LIHEAP and CSBG:  Providing Assistance to Low-Income Families.  
Today's hearing marks the beginning of the Subcommittee's examination 
of the Low-Income Home Energy Assistance Program, which we all know 
as LIHEAP, and the Community Services Block Grant, which we all know as 
CSBG.  Both programs are scheduled for reauthorization during the 
108th Congress session.

	We are interested in learning more about how LIHEAP and CSBG 
have been implemented and administered since the last reauthorization, 
and look forward to learning about what aspects of these programs work 
well and what has not in providing assistance to low-income individuals, 
families, and communities.  We are also eager to hear any suggestions and recommendations for improving LIHEAP and CSBG during the next 
reauthorization.

	As many of you know, the Low-Income Home Energy Assistance Program 
is a block grant program under which the Federal Government gives States 
and other jurisdictions annual grants to operate home energy assistance programs for low-income households.  Federal requirements are minimal 
and leave most important program decisions to the States.  The program 
also authorizes a separate contingency fund that may be used at the 
discretion of the President in response to a natural disaster or other emergency need.

	The LIHEAP program serves over 4 million households each year, 
and in my home State of Delaware, approximately 13,000 families have 
benefited from the program.  The Community Services Block Grant is also 
a Federal block grant that funds a State-administered network of over 
1,100 public and private community action agencies delivering social 
services to low-income Americans.

	The Community Services Block Grant Act was established in 1981 in 
response to President Reagan's proposal to consolidate the community 
services administration and 11 other anti-poverty programs.  Block grant 
funds may be used for a wide range of anti-poverty activities to help 
families and individuals achieve self-sufficiency.  The CSBG program is 
an essential tool in meeting the unique needs of each area and serves 
as a conduit for community services.

	I want to thank and recognize our witnesses for being here today.  
We are looking to you, the people who work with these programs on a daily basis, to find the best way to provide appropriate services to our 
low-income neighbors.  As needs in our communities continue to 
change, we must make sure that our approach to helping families in need is appropriate to the times.

	In just a moment, I will begin with the introductions of all of 
you, but first I will yield to our ranking member, Ms. Woolsey, for any statement she may wish to make.

WRITTEN OPENING STATEMENT OF CHAIRMAN MICHAEL N. CASTLE, 
SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE 
WORKFORCE, U.S. HOUSE OF REPRESENTATIVES - SEE APPENDIX A

OPENING STATEMENT OF RANKING MEMBER LYNN C. WOOLSEY, 
SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES


Ms. Woolsey.  Thank you, Mr. Chairman.

	Thank you, wonderful witnesses, for being here today.  We thought 
we were going to be voting last night, which would mean we would have a 
full committee sitting here listening to you; but when we start tonight 
at 6:30, people are flying in.  It is not lack of interest, believe me.

	I would like you to know how important I believe the Community 
Services Block Grant and the Low-Income Home Energy Assistance Program 
are.  They are not as well known as the other programs under our 
jurisdiction here on the subcommittee, but believe me, they are every 
bit as important.

	Statistics show that poverty touches a large proportion of 
Americans sometime during their lives.  Often it is caused by an 
unexpected event, such as illness, loss of a job or divorce; and 
heaven forbid, just getting old can get you into poverty and can leave 
whole families struggling to survive.  CSBG and LIHEAP provide the 
support that these folks need to keep going through tough times and 
often it helps them fight their way out of poverty and makes it able for 
them to get back on their feet and back on track.

	I am aware of just how important these programs are to families, 
because I am really fortunate to have two excellent community action 
agencies in the district that I represent.  I represent the two counties 
north of the Golden Gate Bridge.  When you get halfway across the 
Golden Gate Bridge, you are in Woolsey country.  The community action 
agencies in both Sonoma and Marin Counties run extremely innovative 
programs, programs that address the real needs of low-income families in 
my community.

	As you can imagine, affordable housing is a huge problem in my 
area.  Community Action, Sonoma County, operates a number of housing facilities, including a unique transitional housing facility for single 
moms, those who are trying to work their way off welfare.  Community 
Action, Sonoma County, runs one of the few school-based health centers 
in California.  It administers an individual development account program, 
it has a program which places a school nurse in eight low-income schools, 
it runs an emergency women's shelter and provides a variety of youth 
services.

	And then, just to show the diversity in the types of programs, 
Community Action, Marin, just south of Sonoma County, was one of the very first HIV service providers in our area, and its peer mental health program 
is scheduled to be featured on PBS in a documentary series on innovative mental health services in the very near future.

	In addition, Community Action, Marin, operates three children's 
centers, including a center for infant and toddler care, which is sorely needed in Marin and every place in the country.  It runs the Marin Head 
Start, the Marin Fatherhood program, a learning center and a jobs and 
career services program, as well as a variety of other programs that 
serve Marin County families in need.

	Some people think that is an oxymoron, Marin County and families 
in need.  It is one of the most affluent districts in the Nation, but we 
have pockets of need; and the people that I represent who pay the high 
taxes actually expect that we will help the people in need in their 
community.  This program makes that very, very possible.

	Like community action agencies all around the country, Community 
Action, Marin, and Community Action Partnership of Sonoma County provide services and support that literally change people's lives.

	So here we are today and you are going to tell us what you know.  
You are the witnesses.  You are the experts.  We look forward to hearing 
your testimony about what works and what doesn't work, because we are going 
to be looking at the changes that need to improve these two programs 
before we reauthorize.

	Thank you, Mr. Chairman.

Mr. Chairman, with unanimous consent I would like to enter the 
recommendations of the National Association for State Community 
Services Programs into the record.

WRITTEN OPENING STATEMENT OF RANKING MEMBER LYNN C. WOOLSEY, 
SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE 
WORKFORCE, U.S. HOUSE OF REPRESENTATIVES - SEE APPENDIX B

Chairman Castle.  Without objection, they will be entered in the 
record.  

WRITTEN DOCUMENT SUBMITTED FOR THE RECORD BY RANKING MEMBER LYNN 
C. WOOLSEY, SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF REPRESENTATIVES - SEE 
APPENDIX C

Chairman Castle.  Thank you, Ms. Woolsey, for your statement.  We 
appreciate it.  We will now turn to our witnesses, because we have a 
very distinguished panel today.  I will now explain the ground rules.

	Some of you understand these rules and some may be new to this, 
but each of you will have 5 minutes in which to testify.  You may summarize your testimony.  I guess in those 5 minutes you can do anything you want, 
but hopefully it will be along the lines of what you have submitted in 
writing to us.

	We will just go in order after I introduce everybody down the line.  
After that is over, each member will have 5 minutes to ask and get questions answered.

Ms. Woolsey is absolutely correct.  This is a return day after our 
break and it had been originally anticipated that we would be in session yesterday.  Because we were not, we probably have an attendance issue that 
we do not normally have.

	I would point out that the testimony you submit is certainly 
reviewed and scrutinized carefully by Committee staff, as well as 
individual staff.  It is every bit as important as if people were here.  
We look forward to your testimony.

	I will now proceed with the introductions.  My first introduction 
is of a fellow Delawarean, Ms. Leslie Lee.  We both had railroad problems today getting down here, but we finally made it.  Ms. Lee is the LIHEAP Director for the Delaware Department of Health and Social Services.  She 
has worked for the State of Delaware for over 24 years, 15 of which were 
spent in her current position.  As Director of LIHEAP, Ms. Lee oversees the daily management of the program to ensure that the needs of low-income citizens are met.

	In addition, Ms. Lee serves as the Secretary of the National Energy Assistance Directors Association, which is known as NEADA.  NEADA is a national organization of LIHEAP State agency administrators that impacts energy policies and services on behalf of low-income households.

	Our second witness will be Dr. Carolyn Drake.  Dr. Drake is the Director of the Southern States Energy Board, SSEB, in Washington, D.C.  
The SSEB is a nonprofit interstate compact organization, created to enhance the quality of life for the citizens of the south through innovations 
in energy and environmental programs and technologies.

Dr. Drake has over 22 years' experience in the area of energy and environmental policy, economic development, and technology development and deployment.  Prior to her current position, Dr. Drake was a professional staffer for a United States Senate Committee.

	After Dr. Drake will be Dr. Mary Nelson.  Dr. Nelson is the 
President and CEO of Bethel New Life, Inc., in Chicago Illinois.  Bethel 
New Life, Inc., is a 24-year-old faith-based community development 
corporation serving the West Side Chicago community.  Bethel has 
demonstrated a commitment to building the community from the inside out 
and has a national reputation for innovative and effective urban 
community initiatives.  Bethel provides over 20 programs for community development, housing and economic development, employment, family support, senior citizens, and cultural arts.

	In addition to her current position at Bethel, Dr. Nelson also 
chairs Good City Chicago, and serves on the boards of Call to Renewal and Christian Community Development Association.  This all seems like enough to keep her busy.

	Now I would like to welcome one of our colleagues from Alabama, 
Mr. Rogers, to the Subcommittee today.  We have given him special 
dispensation to be here.  He has a constituent who is our next witness on 
the panel and we would like to extend him the courtesy of introducing 
him to all of us.   We recognize the gentleman from Alabama, Mr. Rogers.

Mr. Rogers.  Thank you, Chairman Castle and Ranking Member Woolsey 
and members of the Subcommittee.  I appreciate your allowing me the opportunity and the courtesy to introduce to you one of my constituents 
from the Third District of Alabama, as I am not a member of this 
Subcommittee.

	Michael Tubbs serves as the Executive Director of the Community 
Action Association of Alabama and lives in Childersburg, which is a city 
in my district.  As he will testify, the areas I represent have been 
adversely impacted by the loss of textile and manufacturing jobs in the 
State.  Community action partnerships in Alabama help guide those living in poverty and in need of assistance to Federal, State, and local programs and other services that provide the resources they need to get back on their feet.

	In his role as Executive Director, Mike serves the 22 community 
action agencies in Alabama which together provide assistance to people in 
all 67 counties in our State.  Mike also serves with many other local, regional, and national groups striving to solve the issues presented by 
poverty.

	Prior to his current role, Mike worked for 35 years at Alabama 
Power Company.  He received his bachelor's degree in human resource 
management from Faulkner University in Montgomery, Alabama, which is also 
in my district.  Mike is a husband, father, and a grandfather.  
He serves his community as a foster parent and through his church, Grace Baptist.

	I am honored to have the opportunity to introduce him to you today 
and thank the Subcommittee for their time and attention.

	Thank you, Mr. Chairman.

Chairman Castle.  Thank you very much, Mr. Rogers.  We do appreciate having you here today as well.

	Our final witness will be Mr. David Bradley.  Mr. Bradley is the Executive Director of the National Community Action Foundation, the organization that he helped to found in 1981.  He has probably been 
dealing with this subject as much as anybody in the country over all 
these years.  The NCAF is a private nonprofit group that works to 
represent a variety of antipoverty programs.

	In addition, Mr. Bradley is a partner at Moss, McGee, Bradley, 
Kelly & Foley, a government relations firm located in Washington, D.C.

Mr. Bradley has served on a number of advisory boards and is currently 
a member of the FEMA Emergency Food and Shelter national board's resource panel.  We certainly welcome Mr. Bradley here today as part of this panel.

	As I have indicated, we will have the witnesses testify in 5-minute increments and then we will turn to the committee for its questions and statements.

Ms. Lee, you have the honor of being the leadoff witness.

TESTIMONY OF LESLIE LEE, LIHEAP DIRECTOR, DEPARTMENT OF 
HEALTH AND SOCIAL SERVICES, NEW CASTLE, DELAWARE

Ms. Lee.  Good afternoon, everyone.  Thank you.  I want to thank the 
Subcommittee for giving me the opportunity to testify on the reauthorization of the Low-Income Home Energy Assistance Program this afternoon.

	Again, I am Leslie Lee, and I am the Director of LIHEAP in the 
State of Delaware.  I will reiterate that I also serve as the Secretary of 
the National Energy Assistance Directors Association, NEADA, an association 
of the State LIHEAP directors.

	LIHEAP is a program that works.  The primary purpose of our program 
is to provide heating and cooling assistance to low-income households throughout the United States and its territories.  During this past winter, 
we assisted nationally 4.6 million low-income households with home energy bills.  That is only 16 percent of the eligible population.  The average LIHEAP household has an income of less than $10,000 and is primarily 
comprised of low-income elderly, disabled, and poor working families with young children.

	The mean energy burden for low-income households was 14 percent of 
the total income, which is about four times the average for all other households.  Without LIHEAP assistance, many of these families would have 
to choose between paying their energy bills and other vital necessities 
such as food, medicine, rent, and mortgage.  This is especially important 
for households that we target with elderly members, very young children, 
and disabled recipients who are more vulnerable to temperature-related illnesses than most people.

	Delaware provided assistance to 13,179 households over the winter.  This was an increase of 11 percent over the previous winter.  In addition to the 13,000 households that we provided assistance to, we have a crisis 
program that helped more than 4,200 households; that was a 58 
percent increase over the winter before that.  During this time, we had extremely cold weather and a lot of snow in our State and the whole region, 
of which you are probably aware.  We had a lot more people come in asking 
for assistance than usual.

	Due to Delaware's location and the weather situation where we 
actually feel all four seasons, we also have a cooling assistance program.  Some of the States that operate LIHEAP have a heating or a cooling program, and some of us have both; Delaware is one of those programs that has both.  
We felt that was important because a household that does not get the heat 
they require in the winter will be just as vulnerable if they are going through a hot, humid day, and are without any kind of air conditioning.

	Oftentimes we get elderly people who call us and say I have air conditioning, but I do not want to turn it on because I cannot afford to 
pay. We encourage them to turn it on, stating how we will assist them with their electric bill.  Last summer we assisted, in the State of Delaware, almost 600 elderly households and persons who had breathing problems, such 
as children that have asthma-which is a big problem in the State of Delaware.  There are others, emphysema and lung-related problems; we provide an air conditioner for them too.

	In addition, we helped more than 3,200 households with their 
electric bill.  This summer we intend to do the same thing except those numbers will be cut in half, due to the lack of funding for it.  Part of 
the reason for this lack of funding is because we used so much of it during the winter and its extremely cold weather.

	In the State of Delaware we administer a program that we call "one-stop shopping," because the application for the LIHEAP program is the same application process we use for the DOE weatherization program.  This saves 
on administrative costs in the State of Delaware, and it is very helpful for the customers; they are able to come in and not worry about going to multiple places to apply for assistance.

	As a representative of NEADA, I wanted to share with you several recommendations we discussed at a meeting last month, the number one thing being an increase in funding.  In order to serve more households in the 
proper manner we would like to, we wish to see the authorization 
level increased to $3.4 billion.  This is the same level included in the 
House and Senate energy bills.  This would allow States to increase the percentage of eligible households served from about 16 to 34 percent.

	The other major recommendation we have would be to maintain the 
block grant format.  This would allow each of the States to operate a 
program that best fits that particular State.  The program is very focused 
on the climate, so it is important that each State be able to administer a 
program that fits that State.  We would like to focus on that.

	I would like to close by saying-I want to reiterate that LIHEAP 
works.  We can do a better job with additional funding.  I always get 
letters, calls, and thank-you notes from people who say how much this 
program has helped them and, what could happen if they did not have LIHEAP.

	Again, I would like to thank you for having me here this afternoon 
to testify on behalf of LIHEAP.  It has been a pleasure.

WRITTEN TESTIMONY OF LESLIE LEE, LIHEAP DIRECTOR, DEPARTMENT OF 
HEALTH AND SOCIAL SERVICES, NEW CASTLE, DELAWARE - SEE APPENDIX D

Chairman Castle.  Thank you, Ms. Lee.  We will now go to Dr. Drake.

TESTIMONY OF DR. CAROLYN C. DRAKE, DIRECTOR, SOUTHERN 
STATES ENERGY BOARD, WASHINGTON, D.C.

Dr. Drake.  Thank you, Chairman Castle and Subcommittee members.  
Thank you for giving us the opportunity to come and talk about this 
particular program.  We are here today to offer concrete, specific, 
heartfelt recommendations, and suggestions to improve the 
program.

	SSEB, my organization, represents 16 States, stretching form 
Maryland to Texas, that are home to 37 percent of the U.S. population.  
We also have 40 percent of all the low-income citizens in the United 
States.  The South has the Nation's largest poverty rate.

	The population in the South is growing, unemployment right now is 
the highest it has been in several years, and natural gas prices are 
soaring.  This is significant because the LIHEAP funds are still being distributed based on numbers that are more than 20 years old, leading to LIHEAP reaching only about 15 percent of the eligible population.

	Today, embedded within LIHEAP, are two distribution formulas.  
SSEB and southern governors commissioned a study last year that described 
one of those formulas as "a near-ideal allocation methodology."  The 
formula takes into consideration State residential fuel consumption 
for space heating and cooling; annual and average heating and cooling 
degree-days by region, weather zone and State, the percentage of low-
income households, and the average price of fuel for each fuel for each 
State.

	Although this formula was affixed to the LIHEAP program in 1984, 
it only goes into effect when the allocations are above $1.97 billion.  Unfortunately, LIHEAP has averaged only $1.5 billion over the last 17 
years, well below the trigger amount.

	I will not recite the elements of the formula that govern the appropriations if they are below $1.975 billion, but you will find them 
in my prepared remarks.  Note that most of the used data is from 1970, the late 1970s, and the early 1980s, and is based on the number of heating degree-days, squared.  This effectively skews the data to the disadvantage of States in the South and West.

	The Bush Administration also observed the need for a more equitable allocation by basing formulas on current home energy expenditures paid by 
low-income households.  Between 1998 and 2000, heat resulted in almost 20 times more deaths than did the extreme cold.

	The fact is the vast majority of eligible Americans are currently 
not helped by LIHEAP, regardless of where they live.  The Southern States Energy Board recommends that Congress, one, put the needed, substantial appropriations into the program, ensuring the present trigger point is 
routinely exceeded and that the program is able to reach more of those 
that it is intended to serve, not just 15 percent of them.  This 
necessitates a sustained formula grant appropriation well above 
$1.975 billion.  Doing so would ensure no State is negatively affected and, therefore, would not devolve into a regional fight.

	Number two, we would like to see the increased LIHEAP authorization level to accommodate a materially higher appropriation; and three, we would like for Congress to more closely examine the current formula, as well as 
the adequacy of the authorization and appropriations.  This would ensure 
that LIHEAP is meeting the needs of the citizens who are living 
in unhealthy and unsafe conditions because they cannot pay their energy 
bills.  Before the program is reauthorized, perhaps the Department of 
Health and Human Services should prepare recommendations for this Committee 
on the manner in which the funds are available and distributed.

Mr. Chairman, we are grateful for the opportunity to share these insights 
and pledge to work closely and cooperatively with you to improve LIHEAP.

WRITTEN TESTIMONY OF DR. CAROLYN C. DRAKE, DIRECTOR, SOUTHERN STATES 
ENERGY BOARD, WASHINGTON, D.C. - SEE APPENDIX E

Chairman Castle.  Thank you very much, Dr. Drake.  We will now 
turn to Dr. Nelson.

TESTIMONY OF DR. MARY NELSON, PRESIDENT AND CEO, BETHEL 
NEW LIFE, INC., CHICAGO, ILLINOIS

Dr. Nelson.  Thank you.  It is a real pleasure to be here before you today, 
Mr. Chairman and Committee members, especially my own Congressman, Danny Davis, to urge you to support the reauthorization of the CED program of 
the CSBG, not particularly the Secretary's discretionary fund.

	Bethel New Life is a faith-based community development corporation, 
an outgrowth of the community ministry of Bethel Lutheran Church on the 
west side of Chicago.  Bethel has done over 1,000 units of energy-efficient housing and placed over 7,000 people in living-wage jobs.  We achieved 
all this in our 24 years of existence, and bringing over $130 million of 
new investments into our credit-starved community.

	We have created over 800 new permanent jobs in the community; we currently have 400 employees ourselves, 90 percent residents of our 
low-income community, and a $12.5-million-a-year operating budget.  We 
seek to empower individuals, strengthen families, and build a 
sustainable community.  I am really pleased to be here.

	We have been a recipient and user of CED funds to help make a real 
and visible difference in our community.  I want to take a moment to just describe community development corporations, or CDCs.

	There are over 3,000 of us across the country; I am sure we are in every one of your communities.  We target the lowest income minority communities where the lack of credit, the lack of assets, and the lack of investment are a major difficulty.  CDCs, along with creative energy and 
community-based approaches, carve out great sitting, solutions, and opportunities for people in our communities.

	I am a former Chair of the Board of the National Congress of 
Community Economic Development, NCCED, and we regularly did surveys of 
CDCs.  The most recent survey showed in the last 2-year period that CDCs 
have created or retained some 247,000 jobs in this country, developed 
550,000 units of affordable housing, loaned $1.9 billion to small 
businesses, rehabilitated or built 71 million square feet of commercial 
and industrial space, and assisted 149,000 homeowners.  We are, over all, 
the best-kept secret in many communities, doing the work that the 
marketplace does not do because the challenges are great.

	Section 681 of the CSBG Act authorizes the discretionary authority 
of the Secretary, and that is where the CED program fits in.  It is unique 
in a number of ways.  It is the only place that we know of where there is capital directly made available for CDCs to invest in private business 
and enterprises, in turn, to target jobs and business opportunities to low-income citizens.  It is extremely targeted for the biggest bang for the 
buck in targeting low-income folks.

	Secondly, the CED program is effective in leveraging dollars.  
For every dollar of government money, the CED money, 3 private dollars, 
are leveraged and brought into credit-starved communities, really making 
a difference.  It can do a variety of things in attracting both bank investments and other investments, really helping communities to achieve 
the tipping point.

	It is a competitive, discretionary grant program.  Grants are made 
for a whole variety of different things-to finance commercial real estate development, including manufacturing and industrial facilities; business incubators; community facilities such as we have done with day care 
and health centers and other public facilities; and loans to small 
businesses that hire local people and help move people out of poverty and 
off of welfare.  These generated jobs are the most important impact of this grant program.

	We appreciate the President's support for this important program.  This year, the President's budget includes $32.5 million for CED.  Also, 
this year, members of this Committee, including Congressman McKeon, Congressman Petri, and Congressman Danny Davis, worked successfully 
to support the President's request in the Appropriations Committee.

	A recent survey showed that the CED grants created major impact 
and did what they promised.  I would like to give two quick examples, and 
then I will be done.

	First is, Bethel New Life used two different CED grants to transform or close down a 9.2-acre inner-city hospital campus. There we brought in elderly housing, assisted living, children's day care that is partially a 
Head Start program, a culture and performing arts center, and a small 
business center.  All these services created 170 new permanent jobs, 
leveraged $30 million of other investments from the $1 million of CED 
grants, and transformed a block in a community.

	Kentucky Highlands, Kentucky invested in T.Q. Company, allowing the company to expand, be subsequently bought out, and permit Kentucky Highlands Development Corporation to take that money and reinvest it in the neighborhood.

	So these are dollars that get reinvested.

	We have just one quick recommendation.  Obviously, you continue this program, it makes a big difference in our neighborhoods and you continue to help us clarify the law so that there is not any question about what the 
terms mean. Finally, we would recommend that there would be some small 
changes in the law that would help target even better and help work these funds so that they can be recycled in a neighborhood once they have been invested.

	Thank you very much.

WRITTEN TESTIMONY OF DR. MARY NELSON, PRESIDENT AND CEO, BETHEL NEW 
LIFE, INC., CHICAGO, ILLINOIS - SEE APPENDIX F

Chairman Castle.  Thank you, Dr. Nelson.  We will now go on to 
Mr. Tubbs.

TESTIMONY OF MR. MICHAEL TUBBS, EXECUTIVE DIRECTOR, 
COMMUNITY ACTION ASSOCIATION OF ALABAMA, BIRMINGHAM, 
ALABAMA

Mr. Tubbs.  Thank you, Chairman, and thank you, Committee.  It is my 
pleasure to represent my counterparts across the country through my organization Community Action, Alabama.  There are many who do a like-
minded job and have done it very well for many 
more years than I have been involved in Community Action.

	As my representative introduced me, my background is in private business with Alabama Power, a public utility.  I come from a business background that really understands the single product and how to get 
results through investment of ratepayer dollars.

	The issues of poverty are very different.  As I have worked for 3 years now in the Community Action network, I have come to, appreciate the 
work that is being done, and also the many challenges they face.  Funding obviously is a challenge.

	Community Action is unique.  Due to my familiarity with the 
nonprofit sector, Community Action appears to be an organization that has 
its hand on the pulse of the issues of poverty and seeks to match resources with need at the local level.  Its uniqueness is a board membership 
composed of members of the community, people who are face-to-face with poverty-the Board has elected officials, people from private business 
sectors, the faith community, and then representatives from the very people whom we help, the poor.  The uniqueness of Community Action allows them to 
not only react to the local need, but to do something about it at this level.

	There are a lot of people that talk about poverty.  There are only a few that really make a difference in solving the problems of poverty.  Our communities are better because of Community Action.  They build capacity in the community.

	The investment of taxpayer dollars allows us to have venture capital; this is what I see the block grant being.  That block grant is then expanded through building partnerships and relationships at the local level; State and local dollars allow us to expand and support the many programs that are 
funded from different parts of the Federal Government.

	CSBG is the glue that holds all of these programs together.  The 
block grant under girds the many different programs, whether it is transportation, food and nutrition, Fatherhood Initiative, Head Start, weatherization, or LIHEAP.  Without the block grant, those programs would 
be less effective and certainly unable to make the impact that they are 
making in the communities today.

	As all the other witnesses have testified, I do not think there is enough money being printed in Washington to solve all the problems of poverty, but we do make a dent in the communities we serve.  Whether it is rural-which 30-plus percent of our population that we serve are from.  Rural 
communities just do not have community capacity.  There is no economic development in some parts of Alabama, rather economic despair.

	The war on poverty is raging in parts of Alabama, whether it is on 
the Gulf Coast, the Tennessee Valley, or east to west across our great State.  We have solved a lot of problems and we continue to make an impact.

	Community Action is sincere about their work, and we will continue 
to make a difference using the flexibility of the block grant and the effective and efficient programs to make a difference in Alabama.

	There is a high cost of being poor all across the country.  For example, the high cost of transportation in rural communities.  In many 
places there is no transportation in rural communities.  We have people 
who have to pay someone to get them to a Community Action agency-so there 
is a high cost of being poor.

	There are high costs of housing in our area, if you can afford it at all or if it is even livable.  We are trying to do something about 
affordable housing.

	We have food and nutrition programs that help people, especially senior adults.  These do make a big difference.

	Sequencing the programs that we have through the intake process 
allows us to move people toward some level of self-sufficiency.  They might not ever be able to be self-sufficient, but at least we are moving them up that chain so they can be less dependent on the community to solve their 
problems.

	It is a real pleasure to represent the Community Action network of Alabama.  We have great needs, and the block grant helps us solve a number 
of problems.  LIHEAP obviously makes a difference.

	It was 95 and 100 percent humidity when I left Alabama.  LIHEAP actually saves lives.  If you can put a value on that, obviously it is a program that is well worth the investment of tax dollars.

	Thank you for letting me be here today.

WRITTEN TESTIMONY OF MR. MICHAEL TUBBS, EXECUTIVE DIRECTOR, 
COMMUNITY ACTION ASSOCIATION OF ALABAMA, BIRMINGHAM, ALABAMA - SEE 
APPENDIX G

Chairman Castle.  Thank you, Mr. Tubbs.  Mr. Bradley.

TESTIMONY OF MR. DAVID BRADLEY, EXECUTIVE DIRECTOR, 
NATIONAL COMMUNITY ACTION FOUNDATION, WASHINGTON, D.C.

Mr. Bradley.  Thank you, Mr. Chairman and Ranking Member Woolsey.  
It is a pleasure to be here today to talk about both CSBG and LIHEAP.

	Congress created the Community Services Block Grant in 1981.  
From the beginning, it was seen as a program that combined the desire by a President and some in Congress to shift authority and responsibility for programs to the States while at the same time recognizing an equally 
strong desire by many in Congress to maintain a funding stream for the Nation's Community Action Agency network.

Mr. Chairman, the Community Services Block Grant allows Community Action Agencies to do their job.  And what is their job?  Let me quote the best description of the purpose of the Community Action Agency movement ever written.  It comes from the Office of Economic Opportunity in the Nixon administration.  I quote:

	"While the operation of programs is the CAA's principal activity, 
it is not the CAA's, Community Action Agency's, primary objective.  
Community Action Agency programs must serve the larger purpose of 
mobilizing resources and bringing about greater institutional sensitivity.  This critical link between service delivery and improved community response distinguishes Community Action Agencies from other agencies.

	"We recognize that a Community Action Agency has a primarily 
catalytic mission to make the entire community more responsive to the 
needs and interests of the poor by mobilizing resources and bringing 
about greater institutional sensitivity.  A CAA's effectiveness, therefore, 
is measured not only by the services which it directly provides, but more importantly, by the improvements and changes it achieves in the community's attitudes and practices toward the poor and in the allocation and focusing 
of public and private resources for antipoverty purposes." 

Mr. Chairman, those words by then-OEO Director Donald Rumsfeld published in 1970 set the goals and benchmarks for Community Action Agencies that we 
tried to carry forward in the Community Services Block Grant in 1981.  CSBG today funds now more than 1,100 agencies that help provide mainstream leadership and capabilities for creating, coordinating, and delivering 
comprehensive programs and services to almost a quarter of all people 
living in poverty.

	The characteristics of CSBG-funded Community Action Agencies are 
worth mentioning for just a second.

	Governance:  All CSBG have a tripartite board, one-third low-income, one-third public, and one-third private.

	Innovative solutions:  With virtually any Member in Congress, we 
can point to innovative solutions that have occurred in their community because of CSBG-funded Community Action Agency leadership.

	Comprehensive solutions:  CAAs use CSBG dollars to coordinate 
multiple programs.  They provide multiple services, from Head Start to 
family literacy, childcare and after-school programs to youth and adult employment.

	Community Action Agencies, through CSBG, are now a $9 billion 
network found around the country serving 98 percent of the counties, 24 percent of all persons in poverty, 13 million low-income individuals, and 
4 million families.  Community services are truly a work in progress.

	When I walked in today, I saw the paintings of Mr. Perkins, Mr. Goodling, Mr. Ford, and Mr. Hawkins behind me.  Each one of those members 
was involved in developing the Community Services Block Grant and improving and supporting the Community Services Block Grant. 

	In 1998, we requested to this Committee, for instance, and the counterpart in the Senate, to help mandate and develop a better 
accountability and modern management tool for local agencies.  
We are very proud of that new system.  It is called Results Oriented Management Assessment, ROMA, which CAAs are pioneering locally.  The system 
is capturing the outcomes for more than 200 programming combinations 
invested in more than 4 million families and their communities.

	My testimony has a definition, and an explanation of ROMA, but it 
also helps us understand the program.  Even though we are proud of how CSBG works, we think that there are ways it can be improved.  I have summarized 
my amendments in my testimony.  We have the specific amendments, but I think we need three categories of amendments:

	One, amendments ensuring that the three fundamental purposes of CSBG are clearly stated and distinguished from public policies of contemporary concern to Congress.

	Second, amendments ensuring the community services system have 21st century management and accountability systems at the Federal and State levels as well as at the community level.

	Finally, an amendment providing flexibility in determining CSBG eligibility so that participants in CAA programs that support low-wage workers' efforts to become economically self-sufficient are not disqualified from the programs as soon as they begin working in entry level jobs.

	Mr. Chairman, I would like to briefly mention LIHEAP.  LIHEAP is a good program.  It is a necessary program, as you have heard from the other witnesses.  I will say two things on LIHEAP.  I realize that there are questions regarding the LIHEAP formula, but the fact is that LIHEAP is 
grossly under-funded.  The Sun Belt needs more money.  Other regions in the country need more money and say they are either very under-funded or grossly under-funded.

	We strongly support many in Congress' desire to get LIHEAP at $3.4 billion.  There is nothing in LIHEAP that a little more money would not 
solve.

	Second, we feel the performance of the LIHEAP program in a number of States and the Federal oversight of the programs are inadequate and must be addressed with stronger statutory direction.  Many States have excellent programs and have proven, effective leadership.

	You have got an opportunity on this Committee to move both LIHEAP and CSBG in a very strong, bipartisan way.  Both programs play an important role in the lives of the poor, both programs can be improved and both programs are very much necessary in helping define America as a society.

	Thank you, Mr. Chairman.

WRITTEN TESTIMONY OF MR. DAVID BRADLEY, EXECUTIVE DIRECTOR, NATIONAL 
COMMUNITY ACTION FOUNDATION, WASHINGTON, D.C. - SEE APPENDIX H

Chairman Castle.  Thank you, Mr. Bradley.

	  Chairman Castle.  Let me thank all the witnesses for your 
testimony.  We will now turn to the members for our questions.  I will 
start by yielding 5 minutes to myself.

	I sense some sort of conspiracy going on out there, because 
everyone is talking about $3.4 billion and I am not exactly sure I 
understand where it is coming from.  At least three of you mentioned it; 
that makes me a little suspect about where this specific number coming 
from.  I want to discuss that number a little bit, if we can, in a couple 
of contexts.

	One is, why that number?  I think, Ms. Lee, in your written 
testimony, I saw that it would increase the eligibility from 16 percent to 
34 percent of households.  Would that be a correct statement?

Ms. Lee.  Yes.

Chairman Castle.  Of the households in America?

Ms. Lee.  It actually would go from 20 to 40 percent.  It would double the 
amount.

Chairman Castle.  My concern is, what is a reasonable cutoff?  This 
question is for any of the three of you who testified about $3.4 billion number.  What is a 
reasonable cutoff?

	At some point we assume responsibility for our own abilities to pay our phone bills and cable TV, heat and cooling and whatever it may be.  Obviously, we are trying to help with poverty; we are all committed to that.  On the other hand, we obviously cannot afford to do everything.  
Why was that higher figure determined?

	In a moment, Dr. Drake, I am going to ask you about the formula 
with respect to the cooling and the heating aspect.  I am curious as to how that number was selected.  Frankly, it is common for people come before us, they ask for more money hoping to get some more, but why was that particular figure picked and is it really more than is a reasonable request?

Ms. Lee.  I do not feel that the figure is more than a reasonable request.  
I could defer to one of the other panel members, but even with that amount, 
we are still not reaching 50 percent of the eligible population.  That is the way that I looked at it.

Chairman Castle.  Are you turning people away in Delaware now?

Ms. Lee.  Yes.

Chairman Castle.  Who are eligible for assistance?

Ms. Lee.  Yes, we are.

Chairman Castle.  When you say that you serve 13,179 households, 
is that truly what that is, 13,179 households, not 13,179 services?

Ms. Lee.  No, actually there are about 20,000 units of service, which would 
include the number of households served for the regular program, cooling, 
some weatherization and crisis; but actual households, 13,179.  Then they 
may get an additional benefit, which duplicates and pushes us up to about 20,000 units.

Chairman Castle.  Are you suggesting that you are turning away 
requests of people who are financially eligible, but you cannot 
accommodate?

Ms. Lee.  Yes.  For the heating program we did not have to turn anyone away, 
but for the other programs, the crisis program, we had to turn people away, and for our summer cooling program, we had to adjust eligibility.  
Eligibility is at 200 percent of poverty, but in the past we had automatic eligibility for those who were income eligible if they were elderly and 
disabled, or for those who had a special note from a medical doctor saying that someone in the house needed the air conditioning.

	This year we are not able to help them with their electric bill if they are not elderly or disabled, because we are not going to be able to assist all of the persons that come in; and rather than have a cutoff, we 
just eliminated them from eligibility.

Chairman Castle.  Let me move on.  I would love to keep talking to 
you, but I have only 5 minutes.  Let me move on to Dr. Drake for a moment.

	I have heard this priority question in other reauthorizations and 
the concern that we need to do more with respect to the cooling aspect of it.  I think you pretty much directly stated that in your testimony, and I think Mr. Bradley alluded to it a little bit in his testimony.

	If you could either make a suggestion with respect to that or tell 
me your concerns, so we can know exactly what we should be looking at?

Dr. Drake.  Certainly.

	The distribution formula that is most in effect because of the 
level of funding, which is the old formula I referred to, similar to the 
1980 formula, is the 1981 formula.  Under this formula, there are a lot of components within, but primarily what really hurts our States is the heating 
degree-days are squared.  That just generally pulls it up to the Northeast 
and upper Northwest States.  We do not feel that we should have more or have the formula based on the heating and cooling aspects-in other words, energy cost, and based on that and people's ability to pay rather than base it on 
the weather.

Chairman Castle.  Let me jump on quickly.  I would like to pursue 
this later, but let me go to Dr. Nelson for just a moment because you said something about CED that caught my attention. You stated that we need to continue to help clarify the law and you need some small changes made regarding reinvesting in neighborhoods after the dollars have been 
recycled.

	What are your limitations there?  What changes should we specifically be considering in order to help with the problem that you have pointed out?

	I think I understand it, but I would just like to see if I could get it clarified.

Dr. Nelson.  There has been a significant problem, an example being of 
T.Q., which once the equity investment in that company was bought out by a larger company, recycling those dollars with the same purposes in mind of reinvesting and creating jobs in the community.  This problem had to get clarified in the law, in the regulations, or in the appropriation 
bill.

Chairman Castle.  What happens to those dollars if they are not 
recycled now?  What happens to them when they are returned upon the buyout?

Dr. Nelson.  We did get it clarified in the appropriation, but we would like 
to see it put into the law so that it does not have to get clarified every year in appropriation.

Chairman Castle.  Thank you.  Ms. Woolsey.

Ms. Woolsey.  Thank you, Mr. Chairman.  And thank you.  What an 
informed, wonderful group of people you are.  You should write our reauthorization.  So follow it closely and make sure it does what we need 
it to do.

	Where I live-I live in Petaluma, California; we were the first city 
in the country to have-try to have reasonable growth control.  We had to go 
to the Supreme Court to make that happen.

	You can imagine what the fear was:  growth control, so there will 
be no affordable housing, certainly.  And I was on the city council at that point, so I get some credit for this, but because our heart was in the right place, we really intended to have low- and very-low-income housing, and we 
have done it.  We set goals that at least 20 percent of our housing would remain in low and-new housing would be low- and very-low-income housing.  
And because of the Community Service Block Grants, leveraged with 
development fees, we have exceeded that number every year, and we 
have got single family units, we have got multiple units, we have got units with child care centers in the middle of them that work in a fairly high-income area.

	It is an example to the country of what you can do with the right 
use and the flexibility of how to use your block grants.  If we ever have another hearing, I am going to bring the housing director from Petaluma to tell us how they do that.

	David, one of the National Community Action Foundation's goals for CSBG is to add new language to the purposes and goals that are, quote, "distinguished from public policies of contemporary concern to Congress."  I am not smart enough to understand that.  Will you explain 
that to us?

Mr. Bradley.  I think in the last decade or so, there have been some who 
view the program more as a State resource rather than as a community resource.  What we have seen, through the nature of whom we serve, is change, particularly working poor.  We have seen Community Action Agencies, the institution of Community Action Agencies become so widely 
accepted around the country.

	I go back to Mr. Rumsfeld's definition of community action.  I think he hit it on the head in terms of what this program is all about at the community level.  We would like to reemphasize the community roots of this program and its importance in communities.

Ms. Woolsey.  What would you do?  How?  What aren't we doing that 
makes that not possible?

Mr. Bradley.  I think that we need to look at is the original mission in 
CSBG and broaden it to reflect more of community control, more of community responsibility, resources, to emphasize the community nature of the program.  We have specific language that we have given the Committee that we are interested in.

Ms. Woolsey.  Would it help in increasing the funding that the, I believe it 
is the national energy program recommendations haven't raised the funding for LIHEAP.  Would it help if we passed any new funding right straight through to the communities and bypass the States?

Mr. Bradley.  We are always in favor of that, but other people in Congress 
are not.  

Ms. Woolsey.  Whoops, I feel an amendment coming.

Mr. Bradley.  A couple of things:

	You are absolutely right, the Congress, the House in particular, 
did pass in their Energy Policy Act of 2003, the $3.4 billion level for LIHEAP; and the Markey-Pickering Dear Colleague letter on Labor-HHS appropriations did refer to that $3.4.  The Community Services Block Grant 
is funded at $650 million.  It most likely-despite the Administration's 
$155 million proposed cut this year; will be frozen after the appropriations process all works out.  It was frozen last year.  In 
this environment we are thankful for that.

	As the Congresswoman knows, I go around the country quite a bit.  I really underestimated the number of working poor and TANF leavers that are flooding our system.  It was a serious mistake on my part.

	As everyone else is going to make arguments for money, I think the program could use additional funds but I also think what this program desperately needs is a new initiative.

Mr. Castle referred to all the other pieces of legislation this Committee deals with.  The Community Action Agency network, all 1,100, would love to 
be part of a new national initiative that gives additional recognition, responsibilities and after those, additional resources.

	The program has some needs.  It has some changes in the legislation that need to be made to make the program more effective and stretch the dollars even further.

Ms. Woolsey.  Just a short question, Mr. Chairman.  By freezing funding, 
aren't we really saying we are cutting funding?

Mr. Bradley.  Correct.

Chairman Castle.  Thank you, Ms. Woolsey.

	We will now yield to the gentleman from Nebraska, Mr. Osborne, for 
5 minutes.

Mr. Osborne.  Thank you, Mr. Chairman.  Mr. Ehlers has to leave for 
another event, so I am going to yield a minute of my time to Mr. Ehlers at this time.

Mr. Ehlers.  I thank the gentleman for yielding, and I am sorry I have to 
leave for another meeting, but I just have a quick question regarding LIHEAP.

	Part of the current law provides for weatherization.  What percentage of your budgets, if you can just go down the line, is spent on weatherization and how much is spent for meeting energy needs?  Mrs. Lee?

Ms. Lee.  It varies in the State of Delaware.  This year, 12 percent of our budget went to weatherization, and we can go up to 15 percent.  In some years, many years actually, we have gone up to 15 percent; other years it has been lower.

Mr. Ehlers.  Dr. Drake?

Dr. Drake.  That would be up to individual States, and since we have 16, I 
would not be able to go down through the list right now.  But we could provide that for you if you would like.

WRITTEN DOCUMENT SUBMITTED FOR THE RECORD BY DR. CAROLYN C. DRAKE, 
DIRECTOR, SOUTHERN STATES ENERGY BOARD, WASHINGTON, D.C., AT THE 
REQUEST OF THE HONORABLE VERNON EHLERS, SUBCOMMITTEE ON EDUCATION 
REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES - SEE APPENDIX I

Mr. Ehlers.  I would very much appreciate it if you could.

	Does anyone else wish to comment?

Mr. Tubbs.  Yes.  In Alabama the LIHEAP appropriation is 15 percent of 15 
million.  It can be changed if we receive an emergency appropriation and do not spend down our winter dollars.  Summer is not a problem; we spend our summer money.

Mr. Ehlers.  Are you using the entire 15 percent?

Mr. Tubbs.  To supplement the DOE weatherization program, yes, sir.  We 
have, as with a lot of States, quite a number of substandard homes, especially elderly and families with children; These substandard homes it do complement the DOE weatherization program, which is about a $4.5 million appropriation in Alabama.  It makes a huge amount of difference.

Mr. Ehlers.  Mr. Chairman, I just wanted to make a comment.  I think it is a 
much better practice to reduce the need for energy funding than to continue to pour money up the smokestacks of the homes.  I hope we can take a look at how much is allocated for weatherization, what the impact is, how it is used, and whether or not we can increase that to make a more effective 
program.

	With that, I thank the gentleman for yielding.

Chairman Castle.  We will not hold this time against Mr. Osborne.  
But would you yield to me a minute for a follow-up question to that?

	Two of you cited 15 percent.  Is there something in the law that has 
a cap of 15 percent for weatherization?

Ms. Lee.  Yes.  You can ask for a waiver of up to 25 percent, but the cap in the law is 15 percent.  I did find out that nationally it is about 10 percent of the LIHEAP money that goes to weatherization.

Mr. Ehlers.  Mr. Chairman, a quick question.  I am not sure that is in the 
law.  It may be in the regulations.

Chairman Castle.  Okay.  We will look that up.

Mr. Tubbs, would you like to comment on that?

Mr. Tubbs.  I believe in our State, as best I understand, it works in 
partnership with the State administration that helps monitor these programs.  This is in cooperation with the State as a monitor and oversight group.

Chairman Castle.  Okay.  Thank you.

Mr. Ehlers.  Thank you very much.

Chairman Castle.  Okay.  Thank you very much.

	Unless there is an objection, can we start the 5 minutes over again for Mr. Osborne?

Mr. Osborne.  Thank you again, Mr. Chairman.

	As you know, we often get asked for more money.  One question I would like to ask all of you, maybe starting with Ms. Lee, is, what changes or recommendations do you have to improve the efficiency of LIHEAP?   What can 
we do to make the money we currently have go further?  Are there any things that we can do to streamline the process?

Ms. Lee.  One of the things that we are working on right now, the NEADA 
organization is in the process of preparing to do a study this summer and fall, and it is modeled off of a similar study that was done in the State 
of Iowa back in 1999.  This study determined how many LIHEAP households 
were choosing between foods and medicines and providing heat.  We 
are hoping that the results of this study would help us to come up with 
better programs and more innovative ideas.

	At the same time they are going to be looking at the best practices and sharing them with other States so that we can look at what it is that is going on elsewhere and adopt them to our individual States.

Mr. Osborne.  Are there any other comments?  I understand one of the 
problems must be that there is an inequitable distribution of funds based on heating and cooling and that maybe that formula could be altered in some way.  I think Dr. Drake was referring to that.

	I am assuming that the regulations bind you in some ways; is that correct?

Dr. Drake.  Yes.

Mr. Osborne.  Okay.  Mr. Tubbs, did you have a 
comment?  Or Mr. Bradley?

Mr. Bradley.  I think that there are a number of changes that should be 
considered for LIHEAP.

	One, the legislation should allow working families and the elderly to apply for LIHEAP without having to go either to welfare, TANF offices, or to use the computerized system.

	We need to make sure that the States are getting the lowest-cost fuel in return for the direct transfer of millions, or tens of millions, of dollars to energy vendors.

	We need to provide incentives to customers who pay their bills.  In fact, some LIHEAP programs are set up to do exactly the opposite.

	Finally, we need to ensure that LIHEAP participants are afforded the information and services that can change their long-term energy situation and their level of self-sufficiency.

	I believe there are some very specific changes that should be considered for LIHEAP.

Mr. Osborne.  Could you please restate your last point?

Mr. Bradley.  Ensure that LIHEAP participants are afforded information 
and services that can change their long-term energy situation and their level of self-sufficiency.  A majority of the time education can help stretch those dollars further and make a big difference in families' lives.

Mr. Osborne.  All right.  Thank you.  Those suggestions are all extremely 
helpful to me.

	I have one other question and I would like Dr. Nelson to answer it.  We continually have some debates here about faith-based initiatives.  My understanding is that you said that you had 400 employees and with hiring the law allows faith-based organizations to allow religious preferences to enter into the system.  I was wondering how this impacts your organization.

	Does it make any difference as to how you operate?  What are your views?  I am interested to know because we get philosophical arguments back and forth.  We seldom talk to somebody who is out in the field actually experiencing how this works.

Dr. Nelson.  Well, remember we are a 24-year-old faith-based organization, 
so long before this whole debate came up; we were very clear about it.  We 
are a community development corporation as well, so we give hiring 
preferences to people from the community.  We are also very clear about the fact that we are a faith-based organization.

	Our mission statement is that passage from Isaiah that talks about justice and compassion as the way to a healthy community.  But we do not discriminate against people who do not share our faith.  We say, this is who we are, this is the motivation, and can you feel comfortable and agree to 
this mission, this central purpose of who we are?  If you cannot, if you do not feel comfortable in this setting, then we are probably not the right 
place for you.

	We do not discriminate.  We have people of many different persuasions as our employees.

Mr. Osborne.  Okay.  Thank you.

	One last question, Mr. Tubbs:  You mentioned the Fatherhood Initiative.  My feeling is that a lot of the problems you are dealing with 
are related to the fact of a father absence.  When the 
father is present, a lot of these things do not happen.

	What weight do you give to the Fatherhood Initiative and do you see 
it being effective or not?

Mr. Tubbs.  We have three agencies out of 22 that have Fatherhood 
Initiatives.  The goal there is obviously to include the father in the life 
of the family, the life of the family with children.  It has made a significant difference.

	Many in the population that we are trying to reach are people who 
have been incarcerated; they are released from prison, and it is obviously difficult to reconnect.  At least involving the father again has made a 
good deal of difference in our studies.

	Congressman Rogers' district has a fatherhood initiative in it, and 
it is beginning to bear fruit.  It is again in its infancy.  It is a year or so old.  It is a $50,000 program in one county; so it is like a drop in the ocean, but it at least is making an impact in 8 or 10 young men's lives, 
reconnecting them to that family, seeking better employment, meaning employment at all or seeking better employment opportunities, and providing for child support.  In some cases actually reconnecting the man back to the family.

	I would say it is making a good deal of difference.  It is an attempt that is beginning to show 
some results.

	I would say that obviously, in principle, it is a wonderful program; in practice, it is a beginning program.  But I believe it is something that 
is going to need propping up to continue.

Mr. Osborne.  Thank you and thank you Mr. Chairman.

Chairman Castle.  Thank you, Mr. Osborne.  The gentleman from Arizona, Mr. Grijalva, is yielded to for 5 minutes.  He has no questions.

	And the gentlewoman from Georgia, Ms. Majette, is yielded to for 5 minutes.

Ms. Majette.  Thank you, Mr. Chairman.

	And thank you, all of the panelists, for being here today and for 
the wonderful work that you do across this country to help make the lives of our citizens better.  I share your concern about the inadequate funding for these programs.  And I note that in the testimony of Mr. Bradley and a 
couple of others of you, as well, that there needs to be more funding 
directed toward the cooling season as well as the heating season.  Is that correct?

Mr. Bradley.  Yes, without taking it from the heating season.

Ms. Majette.  Without taking it from, and so essentially what you are 
asking for is an increase of funding.  And I note that you, as approved by 
the House in H.R. 1644-so you would want $3.4 billion in funding; is that correct?

Mr. Bradley.  That is the figure that is being used in energy policy 
deliberations, whether it is heating or cooling, that is the Markey-Pickering approach on appropriations. That is a figure that a number of people on the Senate side are interested in as well, 3.4 billion.

Ms. Majette.  Is that a figure that you think would be sufficient to meet 
the needs as they currently stand?

Mr. Bradley.  You and I probably spend 4 percent of our income on energy costs.  If that were a goal to get energy costs for the poor down to 4 percent, to put it in perspective, the working number is $20 billion.  So 
3.4 goes a long, long way.

	I happen to agree with Mr. Ehlers' comments.  I strongly, strongly favor investing in weatherization alongside of LIHEAP.  It is the most effective way of stretching dollars out.

Ms. Majette.  I see other members of the panel nodding their heads.

	Does everybody agree that weatherization, increasing the funding for weatherization would be a more effective way of utilizing the funding that is available?  Or do we just-do we need to increase it on both ends. 

Ms. Lee.  Both programs.

Ms. Majette.  For both programs?

Ms. Lee.  Yes.

Ms. Majette.  Everybody agrees, both programs?

Ms. Lee.  Not in lieu of.

Mr. Tubbs.  Well, if you increase LIHEAP, if that 15 percent is doubled, 
then obviously you provide more funding.  In Alabama, that would be multiplying 2.5 times 2, so doubling the amount of LIHEAP appropriation 
would give us $5 million for weatherization, not 2.5.

Mr. Bradley.  However, a $100 million investment in LIHEAP on Labor, 
HHS appropriations, which is going to be tough and probably will be an amendment, an Obey amendment on factors in LIHEAP versus the same or even 
half of that on Interior appropriations for weatherization, in terms of improving the long-term quality of life of that family, I would take 
the choice of investing in weatherization every single time.

Ms. Majette.  Okay.  Thank you.  I yield back.

Chairman Castle.  Thank you, Ms. Majette.  The gentleman from 
Illinois, Mr. Davis, is recognized for 5 minutes.

Mr. Davis of Illinois.  Well, thank you very much, Mr. Chairman.

	I feel somewhat fortunate in that Mary Nelson is a member of the panel, and I have spent a great deal of my time, energy, and effort looking 
at low-income communities and low-income programs; and of course, as far as 
I am concerned, I don't know any organization, any individual, or 
any person that has been more adroit, more effective at dealing with these issues than Bethel New Life.

	It doesn't seem like it has been 24 years.  I mean, that means that both of us are getting older.  I mean, we have been associated so long, looking at the issues.

	I am trying to-and I certainly agree with the line of questioning relative to-it is kind of like saying that an ounce of prevention is worth much more than a pound of cure in terms of weatherization.  I mean, if you 
can help individuals not need more energy, then obviously you are 
going to do well.

	But the question that I really want to ask:  Since all of you work with low-income communities and low-income people, what would you really consider to be the greatest need facing-if you look at urban, inner-city communities where there is obviously a great need and you look at rural communities where there is a great need, if you dissected those, what would you consider to be the greatest amount of need that organizations like yours can really deal with?

	We can just maybe start with Ms. Lee. 

Ms. Lee.  Okay.  This is how I feel personally.  I just feel like people's basic needs should be met:  Food, shelter, heating, and cooling.  If their basic needs are met, then it is easier for them to go about doing things to improve their life and focus on self-sufficiency and maintaining self-sufficiency.  But it is hard to attempt to be self-sufficient when your basic needs are not met, like food, medicine, rent, heating, and cooling.

Mr. Davis of Illinois.  Is there a place to start?

Ms. Lee  At the beginning.  You begin with the shelter, and 
you go from there.

Dr. Drake.  I would just like to add to what she said by stressing the fact that even if you increase this funding to $4 billion, you are still excluding a lot of eligible people because right now, we are only serving 1.5 individuals out of every 10.  Even doubling the funds would still not be anywhere near serving all of those who are eligible.  The States would still have to make choices as to how they spend the money.

Dr. Nelson.  Starting with the notion of energy-efficient affordable housing, 
we build single-family homes in Chicago where we guarantee that the heating bill will not exceed $200 a year.  That took some changes in the building codes.  It took some clever financial arrangements to make those homes affordable.  But that would make a major difference.

	The way that people then can own homes is by having living-wage jobs.  We have a lot of working poor people in this country for whom a large heating or energy bill just throws them out of kilter, even though they are working two and three jobs just to make a living.

	I believe the long-term impact needs to be an education, because it really makes a difference.  If our schools were doing their job, having kids graduating with the tools and the learning knowledge to make a living, the living-wage jobs would become more readily available, in 
turn helping people afford their homes.

	There are short-term steps and then there are long-term ones.

Chairman Castle.  This Subcommittee works on those issues too.

Mr. Tubbs.  Congressman Davis, because it is such a complex issue, I do not 
think there is one answer.  But one thing that the programs we try to manage do is, they do not address just the consequence of poverty, they address cause.  I think that gets to the root of your question.

	As you can see, cause can vary.  It could be senior adults who have 
no retirement because they worked at a textile mill all of their lives and retired from minimum wage jobs.  It could be that they just may be hungry or that they just may need senior companionship.  We have programs that 
reach out to them and do that.

	It could be a young mother with children, whose husband is incarcerated.  Her problem may be adequate shelter and a better opportunity for her children to be better educated.  In an urban area, it could be a housing issue because of the un-affordability of the housing market.

	We start where they are.  I think the uniqueness of community action allows us to do that.  Our people represent the entire community and because of that, we have a better chance, of addressing the very real need, whether 
it is urban, rural or mixed, because we have that, too; as I 
am sure you do in Illinois.

Mr. Bradley.  Mr. Davis, I think it is-there are two levels of answer to 
your question.  One is in terms of what the poor need; it is the logical level, including jobs and living wage.  It is health care, it is housing, 
and it is opportunity.

	For the agencies out there, I think that there is another fundamental desire that needs to be answered, or question that needs to be answered, that I am finding all around the country. This is a question of whether the Federal Government is truly going to remain a partner in delivering social 
services and addressing poverty in America.

	There are a lot of questions that have sent a chilling effect throughout the country in terms of the future of these programs.  I think the number one need is to get some kind of consensus on the role of government, although it is very difficult to do.  It is out there.

Mr. Davis of Illinois.  Thank you very much.

Mr. Chairman, I want to thank you for your leniency in terms of letting the time go for them to answer.

Chairman Castle.  Thank you, Mr. Davis.  Actually, they were 
interesting answers to an interesting question.

	We will now go to Mrs. Davis of California for 5 minutes.

Mrs. Davis of California.  Thank you.  Thank you, Mr. 
Chairman.

	Thank you, to all of you, for being here.  If I might just follow 
up on my colleagues' question, could you perhaps talk about what other programs are impacted by the grants you receive or, in fact, what programs help make your dollars go further?  One program I have in mind, 
AmeriCorps.

	I do not know to what extent you rely on AmeriCorps, but I think sometimes when we-we don't want to look at the community service block grants in isolation necessarily, because I suspect that they are hurt or helped by what else is going on in the community.  You might talk a little bit 
about coordination as well.

	But I am wondering how-you know, is there another major program that is impacted that helps you or hurts you if it goes away?  How do we assess that and further discussions that we might be having?

Dr. Nelson.  I would like to respond to that.

	Obviously, it is like a jigsaw puzzle.  You are always trying to piece together all of these little things to make it work in our neighborhoods, and so AmeriCorps is one of those pieces.

	We use AmeriCorps, locally recruited AmeriCorps volunteers, to help 
us do financial education and the program called "Smart Savers."  Currently, we are trying to go into the high schools through our employment services 
and everywhere else in our transitional housing, focusing on basic financial education, for those who are able to move on into the savings accounts and doing that.

	None of this would be possible without the help of AmeriCorps volunteers-there is no money in it.  There is no way to support employees, 
so for the long term in this country, volunteers are extremely important for self-sufficiency of people.

Mrs. Davis of California.  Are you saying that if funding for AmeriCorps 
went away, if you did not have those volunteers, what would happen?

Dr. Nelson.  We would not be able to do it.  There just is no way to do that.  
We try and raise dollars to match those savings accounts, because it is really critical to have the dollars to provide some incentives on those savings accounts.  It would be very difficult to also try and raise money to support those salaries.

Mrs. Davis of California.  Do others want to respond? Mr. Tubbs  or Mr. Bradley?

Mr. Tubbs.  At the local level we have agencies that are involved in earned 
income tax credit and tax preparation for low-income people.  These agencies provide free tax preparation rather than pay the guy down the street who is going to charge you, and then advance you and charge you for that, too.  We have found that we have created a trust with the very people that we need to be serving and we need to grow that opportunity.

	They trust us to point them toward meaningful opportunities for employment, not chasing a dream.  They trust us to help them get linked up 
to employment or an education opportunity through workforce investment dollars.  The referral that is made through Community Action becomes then a stepping-stone up and out of poverty.

	It is not a direct emergency service like a one-time payment on a high-energy bill.  It is certainly a good idea to manage them as an 
individual or family, as if you were making a case toward some level of success.  You are looking to kind of address the whole need in that case.

	If the need is housing-we have programs where people are involved 
in building their own homes, sweat equity in their own homes and so this is 
a wonderful program.  They could never do that on their own.  They would 
never even know how to do that on their own.  So this allows them some 
measure of opportunity that way.

	Sure, it pops up in many other programs.  It extends itself over 
into those other programs.

Mr. Bradley.  Of the 1,100 agencies, I am willing to bet that probably 
somebody runs every low-income program and some community action agency administers that.  When other programs are impacted, it is either community services block grant funds that are thrown into the breach or CSBG-funded administration to work on a strategy to deal with that problem to get additional replacement funds, et cetera.

	For instance, community action agencies in New Hampshire run the 
WIA system, the Workforce Investment Act.  They are the one-stops.  When dislocated workers' funds are cut, or they run out of dislocated workers, 
the governor still comes to the community action agencies and tells the Agencies to figure it out.

	We still have plant closings.  We still need you to help.  AmeriCorps, I have got dozens of 
calls from community action agencies, a lot in California, regarding this program.

Mrs. Davis of California.  Do you have any thoughts about how we could 
better quantify that?  I don't know whether it would necessarily be in the 
reauthorization, but it worries me that that gets lost, totally lost, in this discussion.  And I don't know whether we need you all in some ways to help us to quantify that to be more outspoken about it, so that people can really understand what is going on here.

Mr. Bradley.  I agree, but I think that since the mid-1980s, and I was 
literally involved in the first 4-second discussion with Senator Stafford and Senator Weicker about creating-then what we were going to call it a community action agency block grant.  I have been around since 1981-that we have had to do this.

	We have tried, through reauthorization on a bipartisan basis with 
both branches engaging, to ratchet up the data, the information, we knew 
about this.  In the 1980s, with David Stockman at OMB, the strategy was, do not collect any information.  If you do not know what they are doing, 
you cannot defend it for funding.

	So every reauthorization, we require a little bit more out of the Federal Government, out of our Federal partners.  It seems to me requiring them to look at this network and some of the impact of other decisions that affect low-income communities and low-income population is not a bad 
thing to do.

Mrs. Davis of California.  Thank you.

	Thank you, Mr. Chairman.  Perhaps we might take a look at that 
because I think that sometimes we isolate some of the figures and the programs.

	And may I ask one more question, briefly?

Chairman Castle.  Sure, one more question.

Mrs. Davis of California  XE "Mrs. Davis of California"  .  Thank you.  It would just be to Dr. Drake.

	You mentioned the LIHEAP and the emergency funding.  Coming from 
San Diego and from California and understanding the energy crisis that we experienced and the need to help out those low-income families who, prior 
to that sharp rise in prices, really didn't need the help; and so 
I am wondering, in terms of the formula, how can we best quantify that?  
How do we deal with, in these crises, changing the way that we look at that issue?  Because higher prices come out of the blue in some cases.

Dr. Drake.  Certainly.

	The formula that I mentioned in the statement, and it is in your written, prepared statement was described as the "near-ideal formula." This formula takes into account if you had sudden changes in your energy costs.  That is why it is this near-perfect formula, because there are times 
when certain things are going to increase over the short term, but maybe not the long term, that you would want to take into account.  I think that is 
very important.

	Going back to-I am not sure how much of the emergency money that you actually received in California at the time, because I believe when the emergency money was finally released, many of our southern States did not 
get any.  I do not know if that was the case in California or not.  A lot of the formula is based on colder-weather States, and California is one of 
the States like the southern States, that would benefit a great deal from a change in the formula or a change in the approach.

	We are willing to leave it like it is up to the first 1.975 billion and then increase the funding, where we would realize a gain over and above the 1.975 billion, and no State would be hurt in that way.

Mrs. Davis of California  XE "Mrs. Davis of California"  .  Thank you, Mr. Chairman.

Chairman Castle.  Thank you, Ms. Davis.

	And that brings us to a close.  Let me just stress how important 
this panel has been to us.  This is a Subcommittee that has had a lot of different issues that we have been managing throughout the course of the 
year.  To sort of go from one subject, like Head Start, to this, it is not 
always easy.

	You are the pioneers for launching us off into the subject for this reauthorization this year, and we appreciate it.  I thought the question-and-answer session was particularly useful today.

	We appreciate your testimony and your presence and we will certainly take all of this into consideration as we go through the reauthorization process and we thank you for being here.

	Unless there is anything further, we stand adjourned.

	[Whereupon, at 4:30 p.m., the subcommittee was adjourned.]


APPENDIX A - WRITTEN OPENING STATEMENT OF CHAIRMAN 
MICHAEL N. CASTLE, SUBCOMMITTEE ON EDUCATION REFORM, 
COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES
<GRAPHIC(S) NOT AVAILABLE FOR TIFF FORMAT>

APPENDIX B - OPENING STATEMENT OF RANKING MEMBER LYNN C. 
WOOLSEY, SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE 
ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES
<GRAPHIC(S) NOT AVAILABLE FOR TIFF FORMAT>


APPENDIX C - WRITTEN DOCUMENT SUBMITTED FOR THE RECORD 
BY RANKING MEMBER LYNN C. WOOLSEY, SUBCOMMITTEE ON 
EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE 
WORKFORCE, U.S. HOUSE OF REPRESENTATIVES
<GRAPHIC(S) NOT AVAILABLE FOR TIFF FORMAT>

APPENDIX D - WRITTEN TESTIMONY OF LESLIE LEE, LIHEAP 
DIRECTOR, DEPARTMENT OF HEALTH AND SOCIAL SERVICES, NEW 
CASTLE, DELAWARE

<GRAPHIC(S) NOT AVAILABLE FOR TIFF FORMAT>


APPENDIX E - WRITTEN TESTIMONY OF DR. CAROLYN C. DRAKE, 
DIRECTOR, SOUTHERN STATES ENERGY BOARD, WASHINGTON, D.C.

<GRAPHIC(S) NOT AVAILABLE FOR TIFF FORMAT>

APPENDIX F - WRITTEN TESTIMONY OF DR. MARY NELSON, 
PRESIDENT AND CEO, BETHEL NEW LIFE, INC., CHICAGO, ILLINOIS

<GRAPHIC(S) NOT AVAILABLE FOR TIFF FORMAT>

APPENDIX G - WRITTEN TESTIMONY OF MR. MICHAEL TUBBS, 
EXECUTIVE DIRECTOR, COMMUNITY ACTION ASSOCIATION OF 
ALABAMA, BIRMINGHAM, ALABAMA

<GRAPHIC(S) NOT AVAILABLE FOR TIFF FORMAT>


APPENDIX H - WRITTEN TESTIMONY OF MR. DAVID BRADLEY, 
EXECUTIVE DIRECTOR, NATIONAL COMMUNITY ACTION 
FOUNDATION, WASHINGTON, D.C.

<GRAPHIC(S) NOT AVAILABLE FOR TIFF FORMAT>

APPENDIX I -WRITTEN DOCUMENT SUBMITTED FOR THE RECORD BY 
DR. CAROLYN C. DRAKE, DIRECTOR, SOUTHERN STATES ENERGY 
BOARD, WASHINGTON, D.C., AT THE REQUEST OF THE HONORABLE 
VERNON EHLERS, SUBCOMMITTEE ON EDUCATION REFORM, 
COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES

<GRAPHIC(S) NOT AVAILABLE FOR TIFF FORMAT>


TABLE OF INDEXES

Chairman Castle, 2, 4, 5, 7, 9, 10, 12, 14, 16, 17, 18, 19, 20, 21, 22, 24, 26, 27, 28, 30, 31
Mr. Bradley, 7, 14, 19, 20, 23, 25, 26, 27, 29, 30
Mr. Davis of Illinois, 26, 28
Mr. Ehlers, 20, 21, 22
Mr. Osborne, 20, 22, 23, 24
Mr. Rogers, 6
Mr. Tubbs, 12, 21, 22, 23, 24, 25, 27, 29
Mrs. Davis of California, 28, 29, 30, 31
Ms. Drake, 9, 18, 21, 23, 27, 30
Ms. Lee, 7, 17, 21, 22, 25, 26
Ms. Majette, 24, 25, 26
Ms. Nelson, 10, 18, 19, 23, 27, 28, 29
Ms. Woolsey, 3, 5, 19, 20

</pre></body></html>
